      Department of Homeland Security





       DHS’ Oversight of Interoperable Communications 





OIG-13-06                                   November 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      November 2, 2012



MEMORANDUM FOR:              The Honorable Rafael Borras
                             Under Secretary for Management

FROM:                        Charles K. Edwards
                             Acting Inspector General

SUBJECT:                     DHS' Oversight of Interoperable Communications

Attached for your action is our final report, DHS' Oversight of Interoperable
Communications. We incorporated the formal comments from the Departmental GAO-
OIG Liaison Office in the final report.

The report contains two recommendations aimed at improving oversight of
interoperable radio communications. Your office concurred with one of the
recommendations. As prescribed by the Department of Homeland Security Directive
077-01, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement, (2)
corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary
to inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.
Based on information provided in your response to the draft report, we consider the
second recommendation resolved. Once your office has fully implemented the
recommendation, please submit a formal closeout letter to us within 30 days so that we
may close the recommendation(s). The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Anne Richards,
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1

Background ......................................................................................................................... 2

Results of Audit ................................................................................................................... 3

     DHS Interoperable Communications ............................................................................ 4 

     Authority and Responsibility for Interoperability ......................................................... 6 

     Conclusion ..................................................................................................................... 8 

     Recommendations ........................................................................................................ 8 

     Management Comments and OIG Analysis .................................................................. 8 

     

Appendices


     Appendix A:           Objectives, Scope, and Methodology ................................................. 10 

     Appendix B:           Management Comments to the Draft Report .................................... 11 

     Appendix C:           Major Contributors to This Report ..................................................... 13 

     Appendix D:           Report Distribution ............................................................................. 14 


Abbreviations
     DHS                   Department of Homeland Security
     GAO                   U.S Government Accountability Office
     JWPMO                 Joint Wireless Program Management Office
     MOA                   Memorandum of Agreement
     OIG                   Office of Inspector General
     S&T                   Science &Technology
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) includes an amalgamation of organizations
   that work together to prevent and respond to terrorist attacks, natural disasters, and
   other threats. Such collaboration requires that components establish effective
   communication among external and internal partners during operations. DHS
   established an internal goal of developing interoperable radio communications and
   identified common channels, and its components invested about $430 million in
   equipment, infrastructure, and maintenance to meet communication requirements. We
   performed this audit to determine whether DHS’ oversight ensured achievement of
   Department-wide interoperable radio communications.

   DHS did not provide effective oversight to ensure that its components achieved
   Department-wide interoperable radio communications. It did not establish an effective
   governing structure that had the authority and responsibility to oversee its goal of
   achieving Department-wide interoperability. Without a governing structure, DHS had
   limited interoperability policies and procedures, and component personnel did not have
   interoperable radio communications. As a result, only 1 of 479 radio users tested could
   access and communicate using the specified common channel. Further, of the 382
   radios tested, only 20 percent (78) contained all the correct program settings for the
   common channel. Until DHS develops an effective governing structure and makes a
   concerted effort to attain Department-wide interoperability, overall progress will
   remain limited.

   We made two recommendations to improve DHS’ oversight of interoperable radio
   communications. DHS did not concur with the first recommendation and concurred
   with the second and is taking action to implement the recommendation.




www.oig.dhs.gov                               1                                      OIG-13-06
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Background
   The establishment of DHS in 2003 brought together the functions of 22 Federal
   departments and agencies. As a result, the Department today includes a network of
   organizations that work together to prevent and respond to terrorist attacks, natural
   disasters, and other threats. Such collaboration requires that components establish
   effective communication among external and internal partners during operations. DHS
   components perform daily operations to protect the United States from attack and
   illegal entry, enforce Federal immigration and customs laws, and respond to disasters.
   During their daily operations and emergency responses, component personnel depend
   on secure, reliable, and timely access to critical information to carry out their missions.

   DHS’ priority was to assist State and local first responders with attaining interoperable
   communications. DHS created policies, guidance, and templates to aid in achieving
   interoperability for first responders and provided assistance to State and local agencies.
   Since 2003, it has provided about $18.5 billion in Federal Homeland Security grants to
   State and local governments to improve emergency communications. These grants
   allowed State and local governments to enhance interoperability of their emergency
   response systems. According to the U.S. Government Accountability Office (GAO), these
   systems have improved, but full interoperability remains a distant goal. 1 During this
   same time, DHS components invested about $430 million in equipment, infrastructure,
   and resources to meet their communication needs.

   Radio systems allow personnel to receive or share information that is critical for
   operational awareness and personnel safety. DHS’ radio systems include handheld or
   mobile radios and supporting infrastructure and services, and serve about 123,000 radio
   field users. Figure 1 shows the approximate number of radio users for each component
   as of December 2011.




   1
    GAO-12-343, Emergency Communications —Various Challenges Likely to Slow Implementation of a Public
   Safety Broadband Network; February 2012



www.oig.dhs.gov                                    2                                           OIG-13-06
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Figure 1: Approximate Number of Radio Users for Each Component, as of December
   2011

           50,000     45,000                              CBP - Customs and Border Protection
                                                          TSA – Transportation Security Administration
                                                          USCG – United States Coast Guard
                                                          ICE – Immigration and Customs and Enforcement
           40,000                                         USSS – United States Secret Service
                                                          FPS – Federal Protective Service
                                                          FEMA – Federal Emergency Management Agency
                               30,000                     FLETC – Federal Law Enforcement Training Center
           30,000
                                        20,000
           20,000
                                                 13,500
           10,000                                         5,100 5,000 4,000
                                                                                                      250
                  0
                       CBP      TSA     USCG      ICE     USSS           FPS          FEMA FLETC

           Source: DHS

   Interoperable Radio Communications

   DHS personnel require interoperability to communicate both with other DHS
   components and external partners, including Federal, State, and local entities. DHS
   established a goal that all components would be able to communicate using
   interoperable radio systems, and it planned to achieve that goal by establishing a
   common radio channel and purchasing standardized equipment.

   Results of Audit
   DHS did not provide effective oversight to ensure that its components achieved
   Department-wide interoperable communications. It established a goal for internal
   interoperability and established common radio channels. However, only 1 of 479 radio
   users we reviewed could access and communicate using the specified common channel.
   Further, of the 382 radios we tested, only 20 percent (78) contained all the correct
   program settings, including the name, for the common DHS channel. DHS did not
   establish an effective governing structure that had the authority and enforcement
   responsibility to oversee its goal of achieving Department-wide interoperability. Since it
   did not have an authoritative governing structure, DHS had limited interoperability
   policies and procedures, and the components did not inform radio users of the guidance
   that DHS developed. Internal interoperability was not a priority for DHS components,
   and they did not exploit opportunities to achieve Department-wide interoperable
   communications. As a result, DHS personnel do not have reliable interoperable
   communications for daily operations, planned events, and emergencies.




www.oig.dhs.gov                                              3                                              OIG-13-06
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           DHS Interoperable Communications 


           Radio Users

           Component personnel either did not know of or could not find the DHS common
           channel because the components did not effectively inform them of the correct
           channel. We selected 479 radio users to determine whether they could
           communicate using a common channel.2 We examined interoperability in the
           simplest form—radio to radio using the specified common channel. Only one
           radio user could access and communicate across the channel. The remaining
           478 (99.8 percent) radio users were not aware of the channel (345), could not
           find it (118), or found a legacy common channel (15) that had been transferred
           from the Department of Treasury when DHS formed in 2003. Figure 2 shows the
           results of our analysis of radio users.

           Figure 2: Reasons Why Radio Users Could Not Communicate Using the 

           Specified Common Channel 

           • 345 (72 percent) did not
             know about the channel.


          • 118 (25 percent) knew
            of the channel, but
            could not find it in their
            radios.
          • 15 (3 percent) found a
            legacy common channel,
            but not the specified
            channel.
              Source: DHS OIG


           Radio Programming

           DHS did not exploit opportunities to achieve Department-wide interoperable
           communications. DHS’ National Interoperability Field Operations Guide
           identified 18 Federal interoperable channels and encouraged component
           personnel to program radios with the channels. We reviewed radio frequencies


   2
    DHS identified two channels for interoperability. We selected the channel that personnel could use
   without supporting infrastructure.



www.oig.dhs.gov                                       4                                             OIG-13-06
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           to determine whether component personnel programmed the radios with both
           the DHS common channel and a Federal interoperable channel.

           Of the 479 radio users tested, we downloaded information from 382 of their
           radios. 3 We analyzed about 96,000 channels programmed into the radios to
           determine whether the components programmed specified information,
           including channel name and frequency. Our analysis showed that all of the
           radios were capable of interoperability; however, component personnel did not
           program a majority of radios with the correct interoperable channel settings. In
           some cases, component personnel did not program the frequencies into the
           radios. In other cases, component personnel programmed the correct
           frequency, but one or more program settings were not consistent with guidance.
           The following shows the results of our radio programming analysis of the
           interoperable channels.

           DHS Common Channel

           •	 205 (54 percent) did not contain the common frequency;

           •	 99 (26 percent) contained the common frequency; however, one or more of
              the program settings were not in accordance with the defined
              interoperability settings; and

           •	 78 (20 percent) contained all the correct program settings, including the
              name.

           Federal Interoperability Channel

           •	 111 (29 percent) did not contain the Federal frequency;

           •	 170 (45 percent) contained the Federal frequency; however, one or more of
              the program settings were not in accordance with the defined
              interoperability settings; and
           •	 101 (26 percent) contained all the correct program settings, including the
              name.

           Our analysis also showed that component personnel did not program channel
           names according to guidance or did not define channel names. For example, we
           identified 99 radios that contained the DHS common frequency and determined

   3
    We were unable to obtain information for 97 radios for various reasons, such as the fact that our
   software was unable to read the radios.



www.oig.dhs.gov                                        5	                                               OIG-13-06
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           that the components used 23 name variations for the frequency. According to
           GAO, consistent naming conventions are necessary to achieve interoperability. 4
           GAO found little uniformity in the naming of radio channels used by first
           responders—this same requirement applies to internal DHS interoperability.

           Authority and Responsibility for Interoperability

           DHS Structure

           DHS did not establish an effective governing structure that had the authority and
           responsibility to oversee its goal of achieving Department-wide interoperability.
           According to the Office of Management and Budget, an effective governing
           structure includes clearly defined areas of responsibility, appropriately delegated
           authority, and a suitable hierarchy for reporting. DHS created working groups,
           committees, and offices to explore Department-wide communication issues,
           including interoperability. However, none had the authority to implement and
           enforce their recommendations. To manage radio communication issues, DHS—

           •	 In 2003, established the National Wireless Management Office to develop
              policies for Department-wide interoperability;

           •	 In 2006, transformed the National Wireless Management Office into the
              Wireless Services Branch, which established the Wireless Working Group to
              ensure that DHS-wide approaches to wireless communications were
              developed and implemented in an integrated manner;

           •	 In 2009, established the One DHS Emergency Communications Committee to
              coordinate Department-wide emergency communications; and

           •	 In 2011, directed the Executive Steering Committee to create the Joint
              Wireless Program Management Office (JWPMO) to coordinate wireless
              communication activities and develop solutions for new technology.

           The multiple management and organizational changes hindered DHS’ ability to
           provide effective oversight. Components independently developed and
           managed their own radio programs with no formal coordination from DHS. In
           October 2011, the One DHS Emergency Communications Committee prepared a
           Department-wide mission needs statement, which said that DHS radio users
           require interoperability to communicate with other DHS components and with

   4
    GAO 09-604, Emergency Communications—Vulnerabilities Remain and Limited Collaboration and
   Monitoring Hamper Federal Effort, June 2009.



www.oig.dhs.gov                                    6	                                           OIG-13-06
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Federal, State, local, and tribal entities. DHS’ Executive Steering Committee
           developed a draft charter to create the JWPMO.

           According to the JWPMO’s draft charter, the JWPMO will coordinate
           Department-wide radio activities and execute the One DHS Emergency
           Communications Committee’s strategies, plans, and policies. It will be composed
           of dedicated Department resources and, as appropriate, representatives from
           other Federal agencies. Each of the components will contribute resources in
           accordance with a Memorandum of Agreement (MOA). Components will tailor
           their own agreements that define their level of participation. At the time of our
           review, the components had not prepared their agreements. Effectively, the
           JWPMO has no authority to implement and enforce standardized policies and
           procedures to take advantage of interoperability opportunities. Figure 3 shows
           DHS’ current organizational structure.

           Figure 3: Current DHS Communications Structure
                                                            One DHS Emergency
                                                            Communications Committee:
                                                            Develops DHS strategy and
                                                            policy for interoperability and
                                                            emergency communications.



                                                            Executive Steering
                                                            Committee and JWPMO:
                                                            Coordinate communication
                                                            program activities.




                                                            Components: Manage
                                                            their communication
                                                            programs.
                  Source: DHS




           Policies and Procedures

           Because it did not have an authoritative governing structure, DHS had limited
           policies and procedures related to interoperability. In March 2003, DHS issued
           Management Directive 4100, Wireless Management Office, which stated that the
           National Wireless Management Office would ensure interoperability for DHS


www.oig.dhs.gov                                7                                              OIG-13-06
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           components. However, it did not provide policy to components to standardize
           Department-wide radio activities. In 2009, the Wireless Working Group
           identified and recommended that the components use the common channels for
           seamless interoperable communications. In response, the Wireless Services
           Branch provided the components with specific instructions for programming
           radios, including channel names and frequency; however, the channels were not
           mandatory. As a result, the components did not inform their radio users of the
           common channels and did not program the radios consistent with the guidance.

           Conclusion

           DHS did not provide effective oversight to ensure that its components achieved
           Department-wide interoperable radio communications. It did not establish an
           effective governing structure that had the authority and responsibility to oversee
           its goal of achieving Department-wide interoperability. Without an authoritative
           governing structure to oversee emergency communications, DHS had limited
           interoperability policies and procedures. As a result, personnel do not have
           interoperable communications that they can rely on during daily operations,
           planned events, and emergencies.

           Recommendations

           We recommend that the Under Secretary for Management:

           Recommendation #1:

           Create a structure with the necessary authority to ensure that the components
           achieve interoperability.

           Recommendation #2:

           Develop and disseminate policies and procedures to standardize Department-
           wide radio activities, including program settings such as naming conventions to
           ensure interoperability.

           Management Comments and OIG Analysis

           We obtained written comments on the draft report from DHS’ Departmental
           GAO-OIG Liaison Office. We reviewed the comments and, where appropriate,
           made changes to the report. According to its response to the draft report, DHS
           did not concur with recommendation #1 and concurred with recommendation



www.oig.dhs.gov                                8                                       OIG-13-06
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           #2. We included a copy of the management comments in their entirety in
           appendix B. The following is an evaluation of DHS’ official response.

           Management Comments to Recommendation #1

           DHS did not concur with the recommendation and stated that its existing
           structure has the necessary authority to ensure the components achieve
           interoperability.

           OIG Analysis: In its response, the Department acknowledged it encountered
           challenges in achieving Department-wide interoperable communication goals in
           the past, and states it since learned from the weaknesses of the initial
           management efforts. The Department created the JWPMO to coordinate
           Department-wide radio activities, but based on our review, the JWPMO does not
           have the necessary authority to ensure the components achieve interoperability.
           The Department designed JWPMO around the concept of voluntary membership
           through MOAs that allow the components to tailor the agreements and define
           their level of participation with the JWPMO. The structure, based upon
           cooperation and not authority, is the same management approach that proved
           ineffective in the past and the use of MOAs will continue to hinder DHS’ ability to
           achieve interoperable communications. Without the proper authority, the
           Department has a high probability of repeating past mistakes. We consider the
           recommendation unresolved and open.

           Management Comments to Recommendation #2

           DHS concurred with the recommendation and acknowledged the need to
           develop and disseminate policies and procedures to drive and standardize
           Department-wide communications interoperability activities. According to its
           response, DHS stated that it will develop a Departmental interoperability plan
           and disseminate policies and procedures to standardize Department-wide radio
           activities, including program settings, such as naming conventions to ensure
           interoperability.

           OIG analysis: We consider DHS’ actions as responsive and consider the
           recommendation resolved. However, it will remain open until DHS provides a
           copy of the Departmental interoperability plan and its policy and procedures to
           standardize department-wide radio activities.




www.oig.dhs.gov                                 9                                       OIG-13-06
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether DHS’ oversight
   ensured Department-wide interoperable radio communications. To achieve our
   objectives, we—

   •	 Interviewed DHS officials and component personnel from U.S. Customs and Border
      Protection, U.S. Immigration and Customs Enforcement, the Transportation Security
      Administration, the U.S. Secret Service, the Federal Emergency Management
      Agency, the Federal Protective Service, the Federal Law Enforcement Training
      Center, and the U.S. Coast Guard;

   •	 Conducted site visits in Houston, TX; Chicago, IL; Los Angeles and San Diego, CA; and
      New York, NY;

   •	 Reviewed policies and procedures related to radio interoperability;

   •	 Conducted tests of 479 radio users to determine whether they could communicate
      on the designated interoperable radio channels;

   •	 Analyzed data for 382 radios to determine whether the component personnel
      programmed the radios with interoperable radio channels; and

   •	 Assessed the reliability and validity of radio frequency data.

   We conducted this performance audit between March 2011 and March 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                10	                                    OIG-13-06
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                  , t.!oj . tkpanm ltnl or I l 0 nlll!l.nd S H urlt)




                                                                     ;-a
                                                                                  W. ~ hi"ll o n , I>C 20~ 28




                                                                                 Homeland
                                                                     ~..         Security
      MEMORANDUM FOR:                 Charles K. Edwards
                                      Acting Inspector Gene~l/ _   l~~
      FROM:                           J im 1-1 . Crumpuckcr ~          ~("""
                                      D irector, Departmental GAO-O IG l.iaison Office
      SUBJECT:                        Draft Report OlG-I \-057, "DHS' Oversight of
                                      Interoperable Com munications"

      Thank you for the opportunity to rev iew and comment on this draft report. The U.S, Department of
      lI omeland Security (O l-IS) apprec ia tes the Office of Inspcc Lor General's (DIG's) work in planning and
      conducting its review and issuing this report.
      The Secretary and Deputy Secretary made a priori ty of advanci ng interoperable emergency
      communications and somc significan t strides have been made since the establishment of th e
      Department in 2003. The Department upprL'Ciates D IG 's recognition Ihut DI-IS has created policics,
      guidance, llnd tCI'llplotes to aid in achieving interopernbility for first responde rs and providcd
      ass istance to state and local agencies. As also noted , the Department has provided about
      $18.5 billion in Fedcrul Homeland Security grants to state and local governments, which have
      allowed them to enlmncc the in teropcrability of their eme rgency response systems.

      While significant progress has been made in assis ting OIlS 's external pon.ncrs in attaining
      interoperable communications, the Department acknowlcdges it has had some challenges in
      achiev ing Department~w i de interoperable communications goals. The Department learned from th e
      weaknesses ofthe initial management efforts and believes that it has established a governing
      structure empowered with the authority and responsibilities to ensure th e goals are ach ieved.
      Specifically, in 2009, the OneDHS Emergency Communications Comminee (OneDHS EC) was
      established and de legated the authority to develop DI-IS policy and strategy fo r interoperabili ty and
      emergency com m unications. In addition to the formation ofOneDHS Ee, the DHS Tactical
      Communications Network (TACNET) Executive Steering Committee (ESC) was established to
      provide efTective governance, oversight. and gu idance to the TACNET program and related
      ini tiat ives. The ESC charter specifies that it has the authority to oversee all aspects o f the execution
      of the TAC NET program, The ESC also created the charter for the DHS Joint Wireless Program
      Management Office (JWI'MO), which was finalized on April 6. 2012.

      Under the new charter, the JWPMO i ~ aut horiz:ed to del iver the joint next generatio n tactical
      communications capabilities and resources to the ope rators across the Depnrllllcnl. Specifically, the
      JWPMO plans, deve lops. and implements the DHS enterprise-level next gcneration tac ti cal wireless
      communic;) tion s solutions that deliver voice, d3ta , video, und mobile broadband app li cations to
      mission-critical users. T he JWPMO is led by an Executivc Director who reports directl y to the DIIS
      C IO and has delegated responsibility and accountabil ity for the execution of JWPMO programs,
      projects, and enterprise services, Its membership is composed o fdcdicntcd resources nnd
      represenl3lives from across DI-IS and, ti S tlppropriute. representatives from other federnl agellcies,
      The slukeholdcr organizations contribute resou rces in accordnnce with an organizationally specific




www.oig.dhs.gov                                           11                                                                     OIG-13-06
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




    Memorandum of Agreement (MOA). Allhough all the Component MOAs have not been prepared.
    the requisite structure has been established with the authority to execute DHS's wireless
    communications solutions.

    The draft report contained two recommendations. The Department non-concurs with the first and
    concurs with the second. Specifically, OIG recommended that the Under Secretary for Management
    (USM);
    Recommendation 1: Create a structure with the necessary authority to ensure that the components
    achieve interoperability.
    DHS Response: Non-concur. DHS believes that it has already established a structure with the
    necessary authority to ensure that the Components achieve interoperability. DHS agrees to finalize
    and more effectively leverage the existing structure by completing the MOAs from each stakeholder
    and working through the JWPMO membership to implement and enforce the standardized policies
    and procedures for taking advantage of interoperability opportunities.

    Recommendation 2: Develop and disseminate policies and procedures to standardize Department-
    wide radio activities, including program settings such as naming conventions to ensure
    interoperability.
    DHS Response: Concur. The USM agrees with the ongoing need for development and
    dissemination of policies and procedures to drive and standardize Department-wide communications
    interoperabilityactivities. The USM has directed the One DHS EC and the JWPMO to develop the
    departmental interoperability plan. Additionally, the One DHS EC and the JWPMO will develop
    and disseminate policies and procedures to standardize Department-wide radio activities, including
    program settings, such as naming conventions to ensure interoperability.
    Again, thank you for the opportunity to review and comment on this draft report. Technical
    comments were previously provided under separate cover. Please feel free to contact me if you have
    any questions. We look forward to working with you in the future.




www.oig.dhs.gov                                    12                                            OIG-13-06
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Linda Howard, Director
   Sean Pettersen, Audit Manager
   Edwin Soto, Auditor-in-Charge
   Lindsey Koch, Auditor
   Amy Rabinoff, Program Analyst
   Peter Christopher, Program Analyst
   Priscilla Cast, Program Analyst
   Thomas Hamlin, Program Analyst
   Kevin Dolloson, Communication Analyst




www.oig.dhs.gov                            13                   OIG-13-06
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  14                        OIG-13-06
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
